     The Department’s Management of the EDNet Contract




                                 FINAL AUDIT REPORT






                                    ED-OIG/A19G0009 

                                       April 2007




Our mission is to promote the                           U.S Department of Education
efficiency, effectiveness, and                          Office of Inspector General
integrity of the Department's                           Washington, DC
programs and operations.
                            NOTICE

Statements that managerial practices need improvements, as well as other
conclusions and recommendations in this report represent the opinions of the
Office of Inspector General. Determinations of corrective action to be taken will
be made by the appropriate Department of Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports
issued by the Office of Inspector General are available to members of the press
and general public to the extent information contained therein is not subject to
exemptions in the Act.
                        UNITED STATES DEPARTMENT OF EDUCATION
                                              OFFICE OF INSPECTOR GENERAL


                                                                                               THE INSPECTOR GENERAL

                                                        April 17, 2007
Memorandum
TO:               David Dunn
                  Chief of Staff
                  Office of the Secretary


                  Thomas L. Sipes for
FROM:             John P. Higgins, Jr. /s/

SUBJECT:          Final Audit Report
                  The Department’s Management of the EDNet Contract
                  Control Number ED-OIG/A19G0009

Attached is the subject final audit report that covers the results of our review of the Department
of Education’s (Department) management of the Education Network (EDNet) contract. We
received your comments concurring with the findings and associated recommendations in our
draft report.

Corrective actions proposed (resolution phase) and implemented (closure phase) by your
office(s) will be monitored and tracked through the Department’s Audit Accountability and
Resolution Tracking System (AARTS). Department policy requires that you develop a final
corrective action plan (CAP) for our review in the automated system within 30 days of the
issuance of this report. The CAP should set forth the specific action items, and targeted
completion dates, necessary to implement final corrective actions on the findings and
recommendations contained in this final audit report.

In accordance with the Inspector General Act of 1978, as amended, the Office of Inspector
General is required to report to Congress twice a year on the audits that remain unresolved after
six months from the date of issuance.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you have any questions, please
call Michele Weaver-Dugan at (202) 245-6941.

Enclosure


            Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
cc:   William Vajda, Chief Information Officer, Office of the Chief Information Officer
            (OCIO)
      Lawrence Warder, Chief Financial Officer, Office of the Chief Financial Officer (OCFO)
      Michell Clark, Assistant Secretary, Office of Management (OM)
      Phil Link, Director, Executive Secretariat
      Glenn Perry, Director, Contracts and Acquisitions Management (CAM), OCFO
      Sally Budd, Acting Chief of Staff and Audit Liaison Officer (ALO), OCIO
      Jeanie Banks, ALO, OM
      Cynthia Bond-Butler, ALO, CAM, OCFO
                                              TABLE OF CONTENTS 


                                                                                                                                    Page

EXECUTIVE SUMMARY ...........................................................................................................1



BACKGROUND ............................................................................................................................3



AUDIT RESULTS .........................................................................................................................5



     FINDING NO. 1 – 	                 EDNet Contract Structure and Subsequent Changes 

                                       Were Not Effective in Managing Contractor 

                                       Performance. .....................................................................................6



     FINDING NO. 2 – 	                 Department Controls Did Not Ensure That the 

                                       Contractor Provided the Quality and Services Required 

                                       in the Contract.................................................................................13



     FINDING NO. 3 – 	                 Contract Administration Practices Were Not Effective..............23



OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................................33



ATTACHMENTS

          Attachment 1 –         Original Service Level Agreements ..................................................... 35 

          Attachment 2 –         Modified Service Level Agreements ................................................... 37 

          Attachment 3 –         Capability Maturity Model Integration (CMMI) Levels ...................... 38 

          Attachment 4 –         Category C Staff Labor Categories and Qualifications ........................ 39 

          Attachment 5 –         List of Acronyms .................................................................................. 40 

          Attachment 6 –         Department Response to Draft Report 

Final Audit Report
ED-OIG/A19G0009                                                                      Page 1 of 40



                                EXECUTIVE SUMMARY 



The objective of our audit was to determine the effectiveness of the Department of Education’s
(Department) management of the Education Network (EDNet) contract. The Department
awarded the EDNet contract, effective May 1, 2005, to acquire Information Technology (IT)
network services. The main goals of the EDNet contract were to improve all services provided
to the Department customers and to lower costs to the Department through IT integration.

The EDNet contract is managed jointly by the Contracts and Acquisitions Management (CAM)
office, under the Department’s Office of the Chief Financial Officer (OCFO), and the Office of
the Chief Information Officer (OCIO). The principal parties involved in managing the EDNet
contract are the Contracting Officer (CO) and Contract Specialist from OCFO/CAM, and the
Program Manager and Contracting Officer’s Representative from OCIO. The Department
separately acquired the services of an Independent Verification and Validation (IV&V)
contractor to provide assistance in determining whether the EDNet contractor’s performance
conforms to contract requirements.

Overall, we found that significant improvement is needed in the Department’s management of
the EDNet contract. Our audit found the EDNet contract structure and subsequent changes were
not effective in managing contractor performance. Specifically, the structure of the EDNet
contract did not provide effective performance incentives or disincentives to allow for timely
enforcement of an acceptable level of performance. We also found a contract modification was
not fully evaluated to consider whether a reduction in cost was appropriate for the reduced level
of effort required by the contractor to meet acceptable levels of performance. As a result, the
contractor had little incentive to perform during the base year (July 2005 through June 2006) or
in the final year of the contract. Services provided during the base year were rated as
unacceptable, and the Department’s ability to improve performance was hampered.

We also found that the Department’s controls did not ensure the contractor provided the quality
and services required by the contract. Department officials also provided inappropriate direction
to the contractor that changed the scope, requirements and/or due dates for some deliverables.
As a result, the Department paid for a quality or level of services it did not receive, an asset
management system that did not meet contract requirements and duplicated some activities of
other Department contractors, and did not timely receive a critical tool for monitoring contractor
compliance with Service Level Agreements. In addition, because a Department official directed
the contractor to develop and host the tool on its own servers, the Department may have
difficulty enforcing its rights to own the tool.

Finally, we noted the Department’s contract administration practices were not effective. These
practices did not ensure appropriate personnel from within the Department were assigned to
manage and oversee the contract. In addition, Department staff did not always comply with
applicable Federal regulations and Department policies and procedures. As a result, the
Department does not have complete documentation of the contractor’s performance and its
Final Audit Report
ED-OIG/A19G0009                                                                      Page 2 of 40

monitoring of the EDNet contract. The Department also lacks assurance that the contractor fully
complied with the terms and conditions of the contract, and provided all required deliverables for
which the Department paid. In the event of a future dispute, the Department’s position would be
weakened by this lack of documentation.

To correct the weaknesses identified, we recommended that the Department, among other things:

   •		 Establish and implement a corrective action plan and schedule to address the contractor’s
       performance issues and ensure that minimum quality levels of services are provided
       under the contract.
   •		 Based on the corrective action plan implemented, modify the current EDNet contract to
       obtain an equitable adjustment for the Department for any reduced level of effort required
       to meet performance rating standards.
   •		 Ensure that OCIO staff do not provide direction to the contractor that changes the scope,
       delivery dates, or other contract terms and conditions without going through the CO.
   •		 Reinforce to the contractor its responsibility in ensuring that any direction provided that
       impacts the scope, delivery dates, or other terms and conditions, is provided by the CO
       prior to making any changes.
   •		 Confirm that ownership of the Management Information Dashboard (Dashboard) remains
       with the Department. If possible, take action to transition the Dashboard to the
       Department’s systems so that the Department will not lose control of this tool in the event
       of a change in contractors.
   •		 Immediately develop and implement a contract monitoring plan for the EDNet contract to
       include the roles and responsibilities of all involved OCIO staff, OCFO/CAM staff, and
       the IV&V contractor. Conduct a meeting with all involved parties to ensure that all are
       familiar with their responsibilities, as required by OCFO procedure.
   •		 Ensure that appropriate resources, whether Department staff, IV&V, and/or other contract
       assistance, are assigned so that contract monitoring responsibilities can be effectively
       accomplished.
   •		 Establish a process to track receipt of deliverables, review the deliverables for
       compliance with contract requirements, and provide written recommendation to the CO
       for acceptance or rejection of deliverables. Ensure that constructive acceptance does not
       occur and harm the Department’s interests under the contract.
   •		 Establish and implement a process to ensure that all significant actions and monitoring
       under the contract are adequately documented, organized, and accessible to all involved
       parties. Ensure that CAM and program office files contain complete information,
       whether in electronic format or hard copy, to constitute a complete history of the contract
       that is accessible to all involved parties.

In its response to the draft audit report, the Department concurred with the findings and
associated recommendations and provided a corrective action plan to address each
recommendation. The Department’s response is included as Attachment 6 to this report.
Final Audit Report
ED-OIG/A19G0009                                                                                        Page 3 of 40



                                              BACKGROUND 



The Department of Education (Department) awarded the Education Network (EDNet) contract
effective May 1, 2005, to acquire Information Technology (IT) network services. The EDNet
contract includes three principal objectives:
    •		 Improving all services provided to the Department customers, as measured by meeting
        Service Level Agreements (SLAs) 1 and ongoing independent third party customer
        satisfaction surveys.
    •		 Lowering cost and demonstrating better service through the adoption of Capability
        Maturity Model Integration (CMMI) Level 3 processes and competence.
    •		 Continuously lowering costs and improving customer satisfaction going forward for all
        services provided to the Department customers.

In order to achieve the principal objectives outlined above, the EDNet contractor provides IT
support services in three areas:

    •		 Category A – Managed services, billed on a firm fixed price per unit basis, which
        includes server maintenance, messaging (E-mail and Blackberry), and end-user support
        for hardware and software.

    •		 Category B – Resources including, but not limited to, subject matter expertise billed on a
        fixed price and/or time and materials basis.

    •		 Category C – Qualified labor on a time and materials basis for continuous staffing of
        services whose processes will be managed by the Department.

The EDNet contract is a performance-based contract under the Office of the Chief Information
Officer (OCIO). The EDNet contractor’s performance is measured semiannually in categories
such as SLA performance, achievement of small business goals, and customer satisfaction survey
results. Department officials stated a performance-based contract, which included SLAs, was
adopted because they believed it added value when compared to a time and materials contract
and it allowed related incentives to encourage superior contractor performance. Based on
performance beginning with the second year of the contract, the contractor is eligible for award
of future years of the contract. On July 1, 2006, the Department exercised the first option to
extend the EDNet contract for an additional year. As a result, the funding for the contract was
increased to $45,801,743. Payments under the EDNet contract through July 2006 totaled
$20,609,890.


1
 SLAs are agreements that set expectations between the service provider and the customer. They describe the
products or services to be delivered, the single point of contact for end-user problems, and metrics by which the
effectiveness of the process is monitored and approved.
Final Audit Report
ED-OIG/A19G0009                                                                  Page 4 of 40

The EDNet contract is managed jointly by the Contracts and Acquisitions Management (CAM)
office under the Department’s Office of the Chief Financial Officer (OCFO), and OCIO. The
principal parties involved in managing the EDNet contract are the Contracting Officer (CO) and
Contract Specialist (CS) from OCFO/CAM, and the Program Manager (PM) and Contracting
Officer’s Representative (COR) from OCIO. The Department separately acquired the services of
an Independent Verification and Validation (IV&V) contractor to provide assistance in
determining whether the EDNet contractor’s performance conforms to contract requirements.
Final Audit Report
ED-OIG/A19G0009                                                                      Page 5 of 40




                                     AUDIT RESULTS 



Our audit disclosed significant improvement is needed in the Department’s management of the
EDNet contract. Specifically, we found:

 1.		   The EDNet contract structure and subsequent changes were not effective in managing 

        contractor performance,


 2.		   Department controls did not ensure the contractor provided the quality and services 

        required in the contract, and 

 3.		   Contract administration practices were not effective.

The structure of the EDNet contract did not provide effective performance incentives or
disincentives to allow for timely enforcement of an acceptable level of performance. As a
result, the contractor had little incentive to perform and the services provided were rated as
unacceptable during the base year. Further, a contract modification executed after the base year
reduced the level of effort required to meet acceptable levels of performance. The modification
did not provide the Department with corresponding consideration through reduced costs.

The Department’s controls over contract management did not ensure that the contractor provided
contractually required items. As a result, the Department paid for a quality and services it did
not receive. For example, in Category C, the time and materials staff did not meet the
requirements of the labor categories charged. Additionally, an asset management system (AMS)
was not provided timely and did not meet all contract requirements. Finally, a critical tool for
monitoring contractor performance was not provided timely and did not meet all contract
requirements.

Overall, the contract administration practices followed for the EDNet contract were not effective.
These weaknesses included the lack of a contract monitoring plan, failure to routinely review
deliverables, and contract files that did not record significant actions taken under the contract.
As a result, the Department did not have complete documentation of the contractor’s
performance and its own monitoring of the contract. As such, the Department lacks assurance
that the contractor fully complied with the terms and conditions of the contract, and provided all
services and deliverables required and for which the Department paid.

In its response to the draft audit report, the Department concurred with the findings and
associated recommendations and provided a corrective action plan to address each
recommendation. The Department’s response is included as Attachment 6 to this report.
Final Audit Report
ED-OIG/A19G0009                                                                      Page 6 of 40

FINDING NO. 1 – E
                	 DNet Contract Structure and Subsequent Changes Were Not
                Effective in Managing Contractor Performance.

Summary

The initial EDNet contract structure and subsequent changes were not effective in managing
contractor performance. Specifically, we found:

   a.		    The structure of the EDNet contract did not provide effective performance incentives
           or disincentives to allow for timely enforcement of an acceptable level of
           performance, and
   b.		    A contract modification executed after the base year reduced the level of effort
           required to meet acceptable levels of performance under SLAs without receiving
           corresponding consideration through reduced costs.

This occurred because the process for developing the performance evaluation plan did not
adequately consider the need for more immediate incentives or disincentives to ensure adequate
performance and an acceptable level of service. With respect to the modification, Department
staff did not fully evaluate the impact of the changes and consider whether a reduction in cost
was appropriate for reduced effort by the contractor.

As a result, the contractor had little incentive to meet performance requirements during the base
year and during the final year when the contactor is not eligible for award of any additional
years. Services provided during the base year were rated as unacceptable, and the Department’s
ability to improve performance under the contract through the use of incentives or disincentives
was limited. In addition, the modification executed significantly increased the contractor’s
chances of obtaining a higher performance rating without increasing its actual level of effort or
performance.

Issue 1a – The structure of the EDNet contract did not provide effective performance
           incentives or disincentives to allow for enforcement of a minimum level of
           performance.

The structure of the EDNet contract did not provide effective performance incentives or
disincentives to allow for timely enforcement of a minimum level of performance. While the
contract included an incentive related to award of future contract performance years, this
approach provided only limited incentive during the base year.

The EDNet contract included a complex performance evaluation process based on the
contractor’s ability to satisfy SLAs and other factors. The following is an overview of the
performance evaluation process contained in the original contract:

   •		 Performance is evaluated every six months, and the two scores averaged to determine the
       final score for the year. The performance rating is based on several factors, including 50
Final Audit Report
ED-OIG/A19G0009                                                                                   Page 7 of 40

             points allocated to the contractor’s performance in meeting SLAs. 2 An additional 50
             points are allocated to inputs from key customers, end users, and IT management, for a
             total of 100 points.
       •		   The annual score is applied to an overall rating table established in the contract to 

             quantify contractor performance. 

       •		   An average of 85-93 points is defined in the contract as “Superior” performance, and a
             score of 85 represents the minimum level of performance required to allow the contractor
             to receive future award years.
       •		   An average of 70-84 points is defined in the contract as “Satisfactory.” The contract
             further states that 84 points is the “expressed level of satisfactory performance that can be
             expected from a good contractor.” However, attaining this score does not qualify the
             contractor for future award years.
       •		   Failure to meet specific SLAs results in the assignment of demerit points to the
             contractor. The number of related demerit points is based on the reporting frequency and
             disincentive level assigned to the SLA.
       •		   During the base year, SLA demerit points were converted to disincentive points in a ratio
             of 5:1, where 5 demerit points yield 1 disincentive point. At the end of the six-month
             rating periods, the total number of disincentive points is subtracted from an initial pool of
             50 possible SLA performance points to calculate the contractor’s score for SLA
             performance. These point totals, plus the point total from other factors, are combined to
             determine the overall point total out of 100 possible points.
       •		   Performance in the 2005-2006 base year does not result in a determination of award of
             future work.
       •		   A one-year lag is built into the contract between the performance evaluation year and the
             award of future years. For example, “Superior” performance in 2006-2007 could result
             in award of work for 2008-2009.
       •		   Should the contractor not achieve the minimum average score of 85 in 2006-2007, it
             would still have the contract for 2007-2008, to allow time for the Department to
             recompete and transition to a new contractor.

The contractor’s self-assessment of its performance during the base year averaged 35.5 points.
The Department’s assessment of the contractor’s performance over the same period averaged 31
points. The Department’s assessment gave the contractor a performance score of 0 for its
achievement of SLA performance standards during the base year. The contract defines a score of
49 and below as “Unacceptable” and states,

             Performance of 49 and below is indicative of serious mismanagement, negligence
             and/or incompetence. Continued performance at this level will require Education
             to consider terminating the order for default.

While some interim reporting of SLAs and other factors is conducted, the Department lacks
more immediate means of ensuring performance meets standards. An annual scoring with the
determination of an incentive/disincentive for work that would actually occur one year later does
not provide the Department with timely remedies for poor performance or ensure adequate

2
    See Attachment 1 for a complete list of SLAs measured during the base year of the contract.
Final Audit Report
ED-OIG/A19G0009                                                                          Page 8 of 40

performance in each SLA or performance area. The contract requires corrective action at the
“Substandard” level, 50-69 points, one level above “Unacceptable,” as follows,

       Performance between 50 and 69 points requires the Contractor to establish a
       deficiency correction plan and schedule to take the necessary corrective actions.
       Implementation of the plan and schedule will be tracked by the COR and
       Contracting Officer.

No deficiency correction plan is required by the contract at the lowest level of performance, or at
any other level other than the “Substandard” level of 50-69 points, further hampering the
Department’s ability to ensure the contractor takes corrective action and improves performance.

Federal Acquisition Regulation (FAR), Subpart 16.401(a), states,

       . . . Incentive contracts are designed to obtain specific acquisition objectives by. . .
       (2) Including appropriate incentive arrangements designed to (i) motivate
       contractor efforts that might not otherwise be emphasized; and (ii) discourage
       contractor inefficiency and waste.

FAR Subpart 16.402-2 states,

       (b) To the maximum extent practicable, positive and negative performance
       incentives shall be considered in connection with service contracts for
       performance of objectively measurable tasks when quality of performance is
       critical and incentives are likely to motivate the contractor.

       (c) Technical performance incentives may be particularly appropriate in major
       systems contracts, both in development (when performance objectives are known
       and the fabrication of prototypes for test and evaluation is required) and in
       production (if improved performance is attainable and highly desirable to the
       Government).

OCIO staff stated that the Department had not had any prior experience with SLA-based
performance contracts, so this was a new concept. OCIO staff further stated the performance-
based statement of work and performance evaluation system were developed based on the work
performed by a consulting firm, and suggestions and feedback received from potential bidders.
Overall, the process followed to develop the structure of the EDNet contract did not adequately
consider the need for more immediate incentives or disincentives to ensure adequate
performance and an acceptable level of service.

The structure of the performance evaluation system does not provide the Department with an
established method to impose disincentives for poor performance or provide incentives for
superior performance. Amounts paid to the contractor do not have a direct relationship to
performance. The contractor’s performance in the base year was at the unacceptable level, yet
the contractor received the same payment for its services that it would at any other level. The
Department paid the full price for services that did not meet acceptable levels. Since
Final Audit Report
ED-OIG/A19G0009                                                                        Page 9 of 40

performance in the base year did not count toward the award of future years under the contract,
the contractor had no incentive to meet higher performance levels. For future years, the
contractor has no incentive to perform at a level greater than 85 points, since any performance
above that amount is not rewarded.

The Department’s recourse for unacceptable performance is to withhold payments for
unsatisfactory performance, potentially entering a protracted dispute with the contractor, or to
end the contract by terminating for default, or by not exercising option years or awarding future
years. This action would require the Department to recompete the contract, resulting in
additional costs to the Department, without any reduction in contract costs. During the time
period while the contract is being recompeted, the incumbent contractor would have little
incentive to perform in accordance with contract standards.

In addition, the structure of the performance evaluation system was potentially inefficient, as the
contractor would not qualify for future award years even if they achieve a “Satisfactory”
performance level during an annual rating period. Under this level of performance, the
Department would have to invest resources, time, and effort into a competition process, and
potentially select a new “unproven” contractor, even if the current contractor had proven its
ability to satisfactorily fulfill contract terms.

Issue 1b – The contract was modified to reduce the level of effort required under Service
           Level Agreements.

After the base year, and effective July 1, 2006, the Department executed a contract modification
that materially reduced the effort required to meet performance ratings without obtaining a
corresponding reduction in cost. As discussed above, the contractor is required to achieve
defined performance thresholds for specified SLAs. A matrix assigned a fixed number of
demerit points for each SLA performance shortfall based upon its defined measurement
frequency and disincentive value. For example, failure to achieve the performance standard for a
SLA with a weekly measurement frequency and a high disincentive level would result in the
assessment of six demerit points. These demerit points were converted to disincentive points by
an established ratio, and the disincentive points were in turn deducted from a pool of 50 available
SLA performance points.

The modification reduced the total number of SLAs from 43 in the original contract to 26. In
addition, the contract modification impacted three key areas that materially reduced contract
performance requirements. Specifically, the modification (1) reduced the demerit to disincentive
point conversion ratio, (2) established disincentive point caps for individual SLAs, and (3)
reduced performance standards, frequency measurements, and/or disincentive levels for certain
SLAs.

Demerit to Disincentive Point Conversion Ratio Was Reduced

As previously stated, the original conversion of demerits to disincentive points applied a ratio of
5:1. The modification changed this conversion to a 50:1 ratio, requiring a 10-fold increase in the
number of demerits required to earn 1 disincentive point. Table 1 below compares the results for
Final Audit Report
ED-OIG/A19G0009                                                                       Page 10 of 40

the base year performance periods using only the change from the 5:1 ratio to the 50:1 ratio.

This change alone would have raised the contractor’s SLA performance score from 0 to 30
points for the base year (50 total points less 20 SLA performance disincentive points per column
D). The contractor earned 31 points in other rating categories such as customer satisfaction
surveys and achievement of small business goals. This resulted in a performance score of 31
points during the base year (column E). Overall, with all other factors remaining the same, the
change in the ratio would have resulted in an overall performance score of 61 points, rather than
31 points, a 97 percent increase. This would have raised the contractor’s score from
“Unacceptable” to “Substandard” – still not eligible for future award years, but a better
performance rating than under the original methodology.

       Table 1: Impact of Changes in Conversion Point Ratio in Contract Base Year

                                         SLA
                   Total             Performance          SLA Performance
                Demerit Points    Disincentive Points     Points Earned (50     Total Performance
    Contract     (Base Year      (5:1 Original or 50:1    Total Points Less       Points Earned
     Terms        Average)             Modified)         Disincentive Points)        (D + 31)
       A             B                     C                      D                     E
    Original        979                196 (B/5)                   0                    31
    Modified        979                20 (B/50)                  30                    61

Disincentive Point Caps Established for Individual SLAs

The original contract did not limit the total number of disincentives that could be accumulated
for repeated failures within an individual SLA, other than that negative SLA performance scores
were not reported. The lowest score that could be reported for the 50 available SLA points was
zero. In addition, certain SLAs originally contained multiple measures based on the number of
servers in use to provide the service. As demonstrated in Table 1 above, column C, the
contractor’s performance could result in disincentive points that exceeded the 50 available SLA
performance points. Under this methodology, the contractor’s technical proposal estimated that
a total of 34,243 disincentive points could be earned.

The modification limited the total number of disincentive points that could be assessed as equal
to the 50 available SLA performance points. This was completed by establishing a maximum
amount of disincentive points that could be earned for each individual SLA regardless of how
many demerit points were earned. The established disincentive caps ranged from one to five
points for each of the SLAs (for disincentive cap points assigned to the new SLAs, see
Attachment 2). Overall, the caps limited the number of disincentive points that could be earned
by one or more points for 12 of the 26 SLAs (46 percent). As shown in Table 2 below, the caps
on the number of disincentive points that could be earned further increases the contractor’s
performance scores.

Using the revised methodology, the contractor would earn a performance score of 74 points
during the base year (43 points per Table 2 column F + 31 points earned from other rating
categories). This is an increase of 13 points from the 61 points earned when disincentive caps
Final Audit Report
ED-OIG/A19G0009                                                                            Page 11 of 40

were not applied, and is an increase of 139 percent over the original methodology. Overall, this
further increases the contractor’s performance rating to a level of “Satisfactory.” While this
rating would still not qualify the contractor for award of future years, it would increase the
contractor’s performance by two rating levels, and significantly increase the contractor’s ability
to reach the “Superior” level through improvements in other rating factors.

            Table 2: Overall Impact of Methodology Change in Contract Base Year

                              SLA
                          Performance                                         SLA
               Total      Disincentive    Reduction                      Performance          Total
              Demerit      Points (5:1        in            Net        Points Earned (50   Performance
               Points      Original or   Disincentive   Disincentive   Total Points Less      Points
 Contract    (Base Year       50:1       Points Due        Points        Disincentive      Earned (F +
  Terms       Average)     Modified)       to Cap          (C-D)            Points)             31)
    A            B              C             D              E                 F                 G
 Original       979         196 (B/5)          0            196                 0               31
 Modified       979         20 (B/50)         13             7                 43               74

We also noted inconsistencies in the manner in which the caps were applied in that certain SLAs
with the same reporting frequency and disincentive levels had different cap values. For example,
6 of the 26 SLAs established under the modification were created with a weekly reporting
frequency and a high disincentive value. Of these, two SLAs had caps of five points, one SLA
had a cap of two points, and three SLAs had caps of one point.

SLA Performance Standards Reduced

The modification resulted in material reductions in or eliminated measured performance
standards in 16 of the 43 original SLAs (37 percent). Specifically, the modification reduced
percentage performance requirements, or frequency measurement, or disincentive levels for 12
of the original SLAs. In addition, four of the original SLAs that had disincentive levels no
longer appeared in the SLAs established under the modification.

Contract Section H.15, Service Level Agreement Modification Process, states,

       It is recognized that, over the course of the contract, there are innovation factors
       and process improvements that will enable the Service Provider (SP) to provide
       incrementally better services to the Department of Education (ED or the
       Department) over time. As a result, the Department seeks to benefit from
       standard innovations, application of best practices, and process changes that can
       be leveraged from the provider’s experience into the ED environment….

       Subsequent to Transition, both ED and the Service Provider will convene
       periodically to establish which service levels of the 43 performance standards will
       be subject to continuous improvement, or change. ED or the service provider
       may periodically recommend changes to specific service measurements that are
       subject to this term and condition and, as part of the Balanced Scorecard Measure
       and Changes Clause, introduce new candidates for measure….
Final Audit Report
ED-OIG/A19G0009                                                                       Page 12 of 40

       As such, the Parties agree to adopt the concept of continuous improvement and
       that the Performance Standards may be modified during the term of this
       Agreement. However, ED acknowledges that some changes may impact cost and
       introduce variability. . ..

This section of the contract acknowledges the potential need for adjustments to the SLAs, but it
is based on continued improvement. The Department has not yet seen improvement in the SLA
performance.

OCIO officials stated that changes in the performance system were initiated at the end of the first
six months of the base year, when it was determined that the contractor was failing. In addition,
OCIO officials stated there was confusion among senior managers regarding how the
contractor’s performance was evaluated. The former OCIO program manager for the EDNet
contract provided a slide show presentation he prepared that included as guiding principles that
the Department should only measure important areas, and that failure in one SLA should not put
the entire contract at risk. No documentation was found in the contract files or provided by
OCIO that detailed the justifications for the changes made or analyzed the potential impact of the
revisions.

The former OCIO program manager stated there was no analysis to support the selection of the
original 5:1 conversion ratio of demerit points to disincentive points in the original contract. The
former program manager further stated there was no analysis to support adoption of the 50:1
ratio in the modification. OCIO officials stated the SLA caps were established to relieve
confusion over the disagreement between the number of disincentive points and the total number
of SLA performance points. They further acknowledged there was no defined rule for the
application of cap values to individual SLAs.

The changes in the performance measurement factors amount to a material change in the
contract. The changes reduced the level of effort needed to meet performance standards, and
they significantly increased the contractor’s performance rating. While the contract terms
permitted alteration of the SLAs to allow for continuous improvement, the contractor did not
earn any SLA performance points during the base year. Rather than encouraging improvement,
the revisions made to the SLAs, in effect, rewarded the contractor by allowing reduced effort to
meet the same level of performance, or stated another way, by allowing the same level of effort
to meet higher levels of performance.

The Department did not receive any consideration such as reduced costs for this change in level
of effort and ratings calculations. The former OCIO program manager stated he did not know
whether the contract modification resulted in additional or reduced costs to the Department.
CAM staff stated that no mention was made of seeking an equitable adjustment from the
contractor for reduced effort or more achievable performance measures. CAM staff agreed that
had the performance measures been increased or made more difficult to achieve, it would have
been reasonable for the Department to provide the contractor with an equitable adjustment for
increased effort.
Final Audit Report
ED-OIG/A19G0009                                                                      Page 13 of 40

Recommendations

We recommend that the Chief of Staff ensure that the Chief Information Officer and Chief
Financial Officer take action to:

1.1		   Establish and implement a corrective action plan and schedule to address the contractor’s
        performance issues and ensure that minimum quality levels of services are provided
        under the contract.

1.2		   Based on the corrective action plan implemented, modify the current EDNet contract to
        reflect equitable adjustment to the Department for any reduced level of effort required to
        meet performance rating standards.

1.3		   Ensure that future performance-based contracts include appropriate incentives and
        disincentives to motivate contractor performance, provide a correlation between
        performance and payments to the contractor, assure minimum quality levels for all
        critical services, provide the Department with alternatives to address unsatisfactory
        contractor performance, and allow for execution of options years for achievement of
        satisfactory performance levels if such continuation is in the best interest of the
        Department.


Department Comments

The Department concurred with the finding and recommendations.
Final Audit Report
ED-OIG/A19G0009                                                                       Page 14 of 40

FINDING NO. 2 – Department Controls Did Not Ensure That the Contractor
Provided the Quality and Services Required in the Contract.

Summary

The Department’s controls over contract management did not ensure that the contractor provided
the quality and services required in the contract. Specifically, we noted the following:

   a.		    The Department did not ensure that Category A services were provided at CMMI
           Level 3 as required in the contract,
   b.		    The Department did not ensure Category C time and materials staff provided by the
           contractor met the requirements of the labor categories for which the Department was
           charged,
   c.		    The EDNet AMS did not meet all contract requirements, and duplication exists
           between the EDNet AMS and the Department’s AMS operated by the Office of
           Management (OM), and
   d.		    The Management Information Dashboard (Dashboard) was not provided timely and
           did not meet all contract requirements.

This occurred because the Department did not effectively monitor the contractor’s compliance
with the quality of services to be provided. In addition, Department staff inappropriately
provided direction to the contractor that changed the scope, requirements, and/or due dates for
some deliverables.

As a result, the Department paid for a quality or level of services it did not receive, an AMS that
did not meet requirements and duplicated some activities of other Department contractors, and
did not timely receive the Dashboard, a critical tool for monitoring contractor performance with
respect to the SLAs. Finally, because a Department official directed the contractor to host and
develop the Dashboard on its own servers at its own facilities, the Department may have
difficulty enforcing its rights to own the tool it is paying the contractor to develop.

Issue 2a – The Department did not ensure that Category A services were provided at
CMMI Level 3 as required in the contract.

Capability Maturity Model Integration helps to integrate traditionally separate functions, set
process improvement goals and priorities, provide guidance for quality processes, and provide a
point of reference for appraising current processes (for a complete list of CMMI levels, see
Attachment 3). The EDNet’s IV&V contractor reported in its March 2, 2006, Quarterly
Performance Evaluation Report, that the contractor was not complying with the CMMI Level 3
requirements in the contract. The IV&V contractor determined that the EDNet contractor was
making significant progress towards CMMI Level 2 compliance in six of six applicable process
areas that were to have been provided at CMMI Level 3. The IV&V contractor’s determination
was based on review of the self-assessment performed by the EDNet contractor’s own Quality
Assurance Team. In its August 21, 2006, Quarterly Performance Evaluation Report, the IV&V
contractor reevaluated this area and concluded the EDNet contractor was making significant
progress towards CMMI Level 2 in four of six applicable areas.
Final Audit Report
ED-OIG/A19G0009                                                                     Page 15 of 40

We also reviewed monthly CMMI compliance reports submitted by the contractor from
November 2005 through April 2006 that indicated the contractor had not yet achieved CMMI
Level 2 compliance.

The Performance Work Statement (PWS) of the EDNet contract, Section I.A, “Category A (Firm
Fixed Price per Unit Services),” states,

       The contractor shall provide firm fixed price managed services billed on a per unit
       basis at a minimum CMMI Level 3 on day one progressing to Level 4 within
       three to five (3-5) years. The contractor is responsible for all processes used in
       the completion of this work, and shall have the capacity to handle multiple critical
       operational issues at one time.

Category A services include such tasks as maintaining the production servers, providing
messaging services, and supporting end users, including assistive technology and help desk
operations.

One of the evaluation factors considered for selecting the EDNet contractor was the offeror’s
plan to provide CMMI Level 3 processes for all Category A work on the first day of the contract.
The contractor’s technical proposal dated October 7, 2004, incorporated into the EDNet contract
PWS, Section 2.2.2, “Implementing Category A Work at CMMI Level 3 on Day One,” states,
“On Day One [contractor name omitted] will provide ED with well-documented,
institutionalized, well-evaluated CMMI Level 3 processes.”

The COR stated that she did not have enough time to monitor the contractor’s compliance with
all contract terms and conditions. In addition, the COR stated that this was her first experience
in monitoring a performance-based contract and that training was not provided to OCIO staff in
this area. However, CMMI performance was reviewed and reported on by the IV&V and EDNet
contractors during performance of the contract. The IV&V contractor’s initial analysis of this
area was provided to the Department in March 2006, and the EDNet contractor had reported on
this area in weekly status reports as early as August 2005. Information was readily available
showing noncompliance in this area, but the Department did not take formal action to ensure the
required level of service was provided.

Overall, the Department was paying for a quality and level of service it did not receive. The
contract required Category A services to be provided at CMMI Level 3 from the first day of the
contract, but throughout the entire first year of the contract, the Department was receiving
services that did not meet this requirement. These services were paid for on a fixed price per
unit basis. The Department did not obtain any consideration from the contractor for providing
services below contract specifications, or otherwise modify the contract to allow for this
departure from requirements. Since providing this level of service was an evaluation factor in
awarding the contract, this contractor may not have been considered if it had not provided
assurances that it would provide CMMI Level 3 services.
Final Audit Report
ED-OIG/A19G0009                                                                        Page 16 of 40

Issue 2b – Category C staff provided by the contractor did not always meet the
           requirements of the labor categories for which the Department was charged.

The EDNet IV&V contractor reviewed the resumes of Category C staff to determine whether the
staff met the requirements for the labor category in which they were placed. The IV&V results
were provided to the Department on March 2, 2006. The requirements for each labor category
were defined in the EDNet contractor’s technical proposal. It was determined that 36 of the 79
staff met qualifications (46 percent), 26 partially met qualifications (33 percent), and 17 did not
meet qualifications (22 percent). See Attachment 4 for numbers of staff in each category
reviewed, and the IV&V findings.

Category C tasks are provided on a time and materials basis under the contract. The PWS
Section I.C, “Category C (Sustaining Time and Materials Support),” states, “The contractor shall
provide qualified labor on a time and materials basis for continuous staffing of services whose
processes will be managed by ED . . ..“

FAR Subpart 16.601 states,

   (a) Description. A time-and-materials contract provides for acquiring supplies or 

       services on the basis of – (1) Direct labor hours at specified fixed hourly rates that 

       include wages, overhead, general and administrative expenses, and profit. . .. 


   (b) Application. . . .(1) Government surveillance. A time-and-materials contract 

       provides no positive profit incentive to the contractor for cost control or labor 

       efficiency. Therefore, appropriate Government surveillance of contractor 

       performance is required to give reasonable assurance that efficient methods and 

       effective cost controls are being used. 


The CO stated that the contractor retained staff from the prior contractor on the advice of the
Department, but that those staff were not always the best qualified. The CO added that the
contractor needed to get people here who knew how to do the job and how to do it well. The
COR stated that she did not have enough time to monitor the contractor’s compliance with all
contract terms and conditions. In addition, the COR stated that this was her first experience in
monitoring a performance-based contract and that training was not provided to OCIO staff in this
area. Another OCIO staff member stated that Department personnel raised the issue of staff
quality several times with the contractor, but no real solutions were provided.

Even though the staff recommended by the Department may not have been the best qualified, the
contractor should not have placed the staff in a labor category for which they did not qualify, and
then bill the Department based on the rate for that labor category. A waiver process was
established for instances when staff were placed into a labor category for which they were not
completely qualified. The Department had approved waivers for six staff members; five that
partially met qualifications and one that did not meet qualifications. Waivers had not been
provided for the other 37 staff members that did not meet or only partially met requirements.
Final Audit Report
ED-OIG/A19G0009                                                                      Page 17 of 40

The COR stated the results of the IV&V were provided to the EDNet contractor and the
contractor was asked to address the issue. The COR stated the contractor updated some of the
resumes in question, but was uncertain as to whether all issues had been addressed or whether
the updated resumes met requirements. She also stated no discussion was held to recoup funds
from the contractor for the charges at labor categories for which the staff did not qualify.
According to the COR, this issue was not as high a priority as other issues under the contract, so
it was not fully pursued.

The EDNet contractor’s corrective action plan dated October 6, 2006, stated the following:

        . . . [C]ertain parts of staffing process were under [the EDNet contractor’s]
       control but that [the Department’s] involvement impacts [the EDNet contractor’s]
       ability to fill vacancies within 10 days as outlined in the Performance Work
       Statement. . ..

The EDNet contractor’s corrective action plan included a proposed change to the contract.
Subsequently, the contract was modified effective, October 27, 2006, to state,

       The Contractor shall present to the COR a qualified candidate within ten (10)
       business days of a vacancy occurring. A qualified candidate is one whose
       education and experience conforms to the education and experience requirements
       of the labor category.

As a result, the Department did not receive the level of service for which it contracted. For 16 of
17 Category C staff who did not meet qualifications and who did not receive waivers, invoices
from inception of the contract through June 30, 2006, show that 16,840 hours and $1,277,079
were billed for these staff. An additional 29,141 hours and $2,275,797 were billed for the 21 of
26 staff who only partially met qualifications and who did not receive waivers. While the entire
amount of these payments would not necessarily be inappropriate, had the staff been billed at
labor categories for which they did qualify, payments by the Department would have been
significantly less. Even a difference in labor category rates of $5/hour would result in savings of
$229,905 for the period for the staff that did not meet or only partially met qualifications.

Issue 2c – The EDNet asset management system did not meet all contract requirements and
           the system delivered includes duplication of information also maintained by the
           Office of Management.

We found that specific tasks outlined in the EDNet PWS were also assigned to other Department
organizations in previously existing guidance. In addition, the AMS developed by the EDNet
contractor was not provided timely and did not meet all contract requirements. We also found
that the information being tracked by the EDNet contractor duplicates some information included
in OM’s AMS.

The EDNet PWS states, “Asset management is intended to provide ED with a complete an [sic]
accurate count of its IT inventory, warranties, and is to be used in its IT refresh cycle.”
Final Audit Report
ED-OIG/A19G0009                                                                    Page 18 of 40

Specific tasks listed in the PWS under asset management include:

   •		     Tracking, reporting, and disposal, as required, of resources and general-purpose
           computer assets and maintenance agreements of the assets. Managing the disposal
           and disbursements of IT equipment to schools and disbursement of IT equipment
           meeting the minimum EDNet specifications for the Department of Education’s PCs R
           Us.
   •		     Operating and maintaining a central processing and secure storage facility for surplus
           IT equipment.
   •		     Accountability for all IT assets and participate in the annual physical inventory and
           reconciliation process.
   •		     Establishing, updating, and maintaining an asset inventory database.
   •		     Tracking all ED assets (location, asset ID, serial number, finances) and ensuring
           service contracts are in force as needed to meet SLAs.
   •		     Developing and documenting asset management policies and procedures.

Office of Management Handbook OM-05 (Handbook), Property Management Manual, dated
December 31, 2002, includes all of the above items as responsibilities of OM’s Property
Management and Inventory Team (PMIT), with the exception of the tasks related to the PCs R
Us program and equipment service contracts, that are the responsibility of OCIO. The Handbook
provides policies and procedures for the management and administration of the Department’s
plant, property and equipment, and for establishing and maintaining a compliant and effective
property control system. The Department has assigned overall management of its equipment to
Facilities Services in OM. Contractor staff is also used to provide IT property management tasks
in OM.

Department officials stated at the time the requirements for the EDNet contract were being
developed, OM was seeking a new asset management software solution. OM selected a vendor
and began working to implement the software for its AMS in Fiscal Year (FY) 2005. The new
OM AMS was implemented in October 2005. The EDNet contract was awarded April 26, 2005.

According to Department officials, the EDNet asset management tasks were not combined with
OM’s asset management responsibilities due to differing concepts of how the EDNet asset
information would be used and the intention to use the EDNet AMS to support the contractor’s
billing. Department officials also reported there was reluctance on the part of OM PMIT staff to
combine efforts with the EDNet asset management system or to use one system to validate the
other.

The EDNet contractor stated that originally the EDNet AMS was to be provided upon transition
from the prior contractor, or as of July 1, 2005. The contractor stated that since the originally
intended AMS could not be utilized, the delivery date for the AMS was revised by OCIO to
March 2006, and then revised again to October 2006. None of these changes to deliverable dates
or the scope of the work under this task were formally made to the contract through a
modification.
Final Audit Report
ED-OIG/A19G0009                                                                       Page 19 of 40

Also, since the originally intended AMS could not be utilized, the contractor received initial
information from the OM AMS to serve as an interim solution while the new system was being
developed. As result, the current EDNet’s AMS and OM’s AMS contain similar information
related to IT equipment.

The EDNet AMS was included in the fixed price portion of the contract. Since the scope of
effort and delivery date of the product were never formally changed, and an adjustment in
contract price was not received, the Department has paid for services it did not fully receive.

Using the OM AMS to validate information in the EDNet AMS would help ensure the
Department is not being billed for items that are not in use. Due to past problems noted with the
OM AMS, the Department is currently undergoing an inventory to validate all OM AMS
information and provide an accurate inventory. The Department is also obtaining the services of
a database administrator to expand the fields used in the OM AMS.

Issue 2d – The Management Information Dashboard was not provided timely and did not
           meet all contract requirements.

The Dashboard was not provided timely and did not meet all contract requirements. The
Dashboard was intended to function as an automated data collection tool to assist Department
managers in making efficient and effective use of their resources. The Dashboard was intended
to provide items such as: a daily snapshot of how the Department and the contractor are
delivering IT operations; historical information; and trend analysis and correlation. We found
that the Dashboard was provided six months after its original due date and was hosted on the
contractor’s system, at the direction of a Department official, which could create difficulty for
the Department in enforcing its ownership rights. The Department rejected the delivered
Dashboard because it did not meet all contract requirements, so the Department still lacks a fully
functional tool for monitoring SLA performance.

FAR Subpart 43.102(a) states,

       Only contracting officers acting within the scope of their authority are empowered
       to execute contract modifications on behalf of the Government. Other
       Government personnel shall not – (1) Execute contract modifications; (2) Act in
       such a manner as to cause the contractor to believe that they have authority to
       bind the Government; or (3) Direct or encourage the contractor to perform work
       that should be the subject of a contract modification.

OCFO Directive 2-108, Contract Monitoring for Program Officials (Directive), effective
September 16, 2004, and updated March 30, 2006, Section VI.E.3, states the COR,

       Provides technical direction to contractors as necessary and appropriate,
       depending on the type and terms of the contract. The individual named in the
       contract as the COR is the sole person (other than the CO) with the authority to
       provide technical direction.
Final Audit Report
ED-OIG/A19G0009                                                                      Page 20 of 40

Section VII.H of the Directive states technical direction should be kept to a minimum,
must not have the effect of making decisions reserved for the CO, and must be in writing
and on file.

EDNet contract Section G.1.B states,

       Neither the COR nor any other government employee, except the Contracting
       Officer, is authorized to make any commitments or otherwise obligate the
       Department of Education or authorize any changes that affect contract price,
       terms or conditions. . ..

The EDNet contract PWS, Section III, “Scope of Work,” under “Expected Investment in Tools,”
states,

       It is understood that ED will own intellectual property to all data, software and the
       licensing of these tools. These tools include: (1) Management Information
       Dashboard ….

The problems with the Dashboard occurred because OCIO staff inappropriately provided
direction to the contractor on development of the Dashboard without formalizing those changes
through contract modifications. The CO stated that he had not received any requests from OCIO
to change the requirements for the Dashboard.

Delay in Delivery of the Dashboard

The Department delayed development and implementation of the Dashboard. The EDNet
contractor’s technical proposal, Section 9.1, incorporated into the PWS for the EDNet contract,
included development of a Dashboard to collect information on the SLAs to provide
management with the necessary metrics to run operations. The technical proposal states the
initial production of the Dashboard was to be provided within one month of transition, and
complete production within six months of transition. This schedule would have provided initial
production by August 1, 2005, and complete production by January 1, 2006.

Instead, the former OCIO Program Manager communicated to the EDNet contractor in an email
dated June 14, 2005, that the Department would provide the specifications for the Dashboard. In
a letter to the Department dated March 21, 2006, the contractor stated that it was,

       . . . [R]eady and capable of delivering to its initial production version of the
       Management Dashboard on the proposed delivery date. However, per the request
       of [the OCIO Program Manager], we were instructed to delay initial production of
       the Management Dashboard until the Department provided its own specifications.


OCIO engaged the IV&V contractor to develop specifications for the Dashboard, and the IV&V
contractor provided the specifications to the EDNet contractor on December 29, 2005. The
EDNet contractor provided initial production of the Dashboard on January 26, 2006, and
Final Audit Report
ED-OIG/A19G0009                                                                        Page 21 of 40

complete production on June 29, 2006, six months after the deliverable was originally due under
the PWS. Changes in the scope of the work (from the EDNet contractor developing the
specifications, to the Department providing the specifications through the IV&V contractor) and
due date were not formalized in the contract.

Hosting and Ownership of the Dashboard

An email from the former Deputy CIO for the Department to the EDNet contractor’s Program
Manager, dated November 29, 2005, permitted the contractor to host the Dashboard on its own
system and expressed the view that the Department may be relinquishing its ownership of all
data and resulting hardware and software from the development of the Dashboard. The email
states,

        Please use your server and your [software] sw . . . to accomplish this goal. Please
        work with [the IV&V contractor] for the design of the [application] app – please
        show them the dashboard you have already developed for other [organizations]
        org to include [Office of Federal Student Aid] FSA. I realize this means that we
        don’t own this [hardware] hw or sw or any customizations you make – and if you
        are not the vendor on this contract that this sw, hw and customization for a
        dashboard will leave with you.

The COR stated she was unsure why this change was made and why the dashboard could not use
a Department server. She stated that she was often excluded from meetings between the
Department’s program manager and the contractor.

Due to delays in development of the Dashboard, the Department did not timely receive a critical
tool for monitoring contractor performance with respect to the SLAs. Because the Department
engaged another contractor to develop the specifications for the Dashboard, additional costs were
incurred. Finally, because the Department provided direction to the contractor that allowed it to
host and develop the Dashboard on its own servers, the Department may have relinquished its
rights to own the tools it is paying for the contractor to develop. The server for the dashboard is
being warehoused at the contractor’s facility in Virginia, and the transmission of data may not be
adequately protected outside the Department’s systems.

Recommendations

We recommend that the Chief of Staff ensure that the Chief Information Officer and the Chief
Financial Officer take action to:

2.1		   Ensure the contractor provides Category A services at CMMI Level 3, or modify the
        contract, including a reduction in price for lesser quality services, to permit the contractor
        to provide services at the lower levels.

2.2		   Ensure the Category C staff meet the qualifications for the labor categories in which they
        are charged.
Final Audit Report
ED-OIG/A19G0009                                                                        Page 22 of 40

2.3		    Determine the labor categories that the staff identified by the IV&V as not meeting or
         partially meeting qualifications should have been placed in, and calculate the amounts
         that should have been charged for their services from the beginning of the contract to
         date. Instruct the contractor to adjust a future invoice to reclaim the amounts improperly
         paid.

2.4		    Ensure that OCIO staff do not provide direction to the contractor that changes the scope,
         delivery dates, or other contract terms and conditions without going through the CO.

2.5		    As appropriate, formalize the changes that have been made and seek equitable
         adjustments for any concessions made on the part of the Department.

2.6		    Reinforce to the contractor its responsibility in ensuring that any direction provided that
         impacts the scope, delivery dates, or other terms and conditions, is provided by the CO
         prior to making any changes.

2.7		    Work with OM to develop and implement a plan to combine or coordinate the EDNet and
         OM AMSs to reduce duplication of effort and data. In the interim, match items billed
         under the EDNet contract to OM’s AMS to ensure only appropriate items are being
         billed.

2.8		    Confirm that ownership of the Dashboard remains with the Department. If possible, take
         action to transition the Dashboard to the Department’s systems so that the Department
         will not lose control of this tool in the event of a change in contractors.

2.9		    Evaluate the security of information passing through the Dashboard, outside the
         Department’s systems, to ensure sensitive data is not vulnerable. Take appropriate
         actions to ensure the security of this data.

2.10		   Provide training to the COR, and other involved OCIO staff and managers, in monitoring
         performance-based contracts.

Department Comments

The Department concurred with the finding and recommendations.
Final Audit Report
ED-OIG/A19G0009                                                                       Page 23 of 40

FINDING NO. 3 – Contract Administration Practices Were Not Effective.

Summary

The contract administration practices followed for the EDNet contract were not effective in
ensuring that the contractor complied with the terms and conditions of the contract. Specifically,
we found,

   a.		      A contract monitoring plan was not developed,
   b.		      Deliverables under the contract were not routinely reviewed and recommendations
             were not made to the CO for acceptance or rejection,
   c.		      The COR did not prepare and submit to the CO written evaluations of contractor-
             submitted reports, and
   d.		      Contract files did not include complete records of actions taken under the contract.

This occurred because the Department did not ensure appropriate resources were assigned to
manage and oversee contract administration, and because Department staff did not comply with
Federal regulations and Department policies and procedures.

As a result, the Department did not have complete documentation of the contractor’s
performance and its monitoring of the contract. The Department lacks assurance that the
contractor fully complied with the terms and conditions of the contract and provided all services
and deliverables required and for which the Department paid. In the event of a future dispute,
the Department’s position would be weakened by this lack of documentation. Also, by not
enforcing some contract terms, the Department may be setting a precedent that could make it
more difficult to enforce other contract terms.

Office of Federal Procurement Policy (OFPP), Policy Letter 93-1, Management Oversight of
Service Contracting, reissued May 18, 1994 (Policy Letter), “. . . establishes Government-wide
policy, assigns responsibilities, and provides guiding principles for Executive Departments and
agencies in managing the acquisition and use of services.”

Section 7c of the Policy Letter states,

          When contracting for services, in particular for highly specialized or technical
          services, agencies should ensure that a sufficient number of trained and
          experienced officials are available within the agency to manage and oversee the
          contract administration function. This especially applies to such services as
          management and professional support, studies, analyses, and evaluations, and
          engineering and technical support. Agency officials need to make sound
          judgments on . . . whether the contractor is performing according to the contract
          terms and conditions . . .. Agency officials must also provide an enhanced degree
          of management controls and oversight when contracting for functions that closely
          support the performance of inherently Government functions.
Final Audit Report
ED-OIG/A19G0009                                                                        Page 24 of 40

FAR Subpart 37.5 implements OFPP Policy Letter 93-1. Subpart 37.503 states, “The agency
head or designee should ensure that . . . (d) Strategies are developed and necessary staff training
is initiated to ensure effective implementation of the policies in 37.102.” Subpart 37.102 is
entitled, “Policy,” and provides requirements for using performance-based acquisition for
services. FAR Subpart 37.102(h) states,

       Agencies shall ensure that sufficiently trained and experienced officials are
       available within the agency to manage and oversee the contract administration
       function.

Issue 3a – A contract monitoring plan was not developed for the EDNet contract.

A contract monitoring plan (CMP) was not developed for the EDNet contract. The EDNet
contract was awarded on April 26, 2005, but as of September 2006, a CMP had not yet been
developed. Currently, the COR is assisted in monitoring the contract by another OCIO staff
member on a part-time basis, OCIO managers, and by the IV&V contractor. However, an
overall plan to coordinate the activities of Department staff and contractors was not developed to
ensure the contract was appropriately monitored.

OCFO Financial Management and Accountability Procedure (Procedure) CO-111, Writing and
Implementing a Contract Monitoring Plan, effective May 31, 2005, states,

       Contracts and Acquisition Management (CAM) policy is that every contract must
       include a Contract Monitoring Plan (CMP) describing the steps the Government
       will take to monitor contractor performance.

The procedure requires the CO, Contract Specialist (CS), or COR to write a plan detailing
how contract performance will be monitored throughout the life of the contract. It further
requires acquisition team members to meet to review the CMP.

The CMP is to be written before contract award. However, in an email to all OCFO CAM staff
on December 16, 2005, CAM management extended the requirement to all existing contracts,
stating that by January 31, 2006, CAM staff were required to write a CMP for each active
contract or task order.

The CO stated that a CMP was developed as a deliverable under the IV&V contract. The CO
believed the IV&V CMP covered all monitoring activities for Department and contractor staff.
However, we found the IV&V plan did not include the responsibilities of the Department staff
and was limited to only the IV&V contractor’s responsibilities. The IV&V CMP did not cover 7
of 12 activities outlined in the Procedure – specifically, accepting/rejecting deliverables, entering
receipts for deliverables, reviewing invoices, paying invoices, communicating with contractors,
processing modifications, and administering subcontracting requirements.

In addition, the IV&V contract was not awarded until September 30, 2005, and the IV&V CMP
was not established until December 5, 2005. From the award of the EDNet contract, effective
Final Audit Report
ED-OIG/A19G0009                                                                       Page 25 of 40

May 1, 2005, seven months elapsed prior to development of the IV&V CMP. For that time
period, no plan was in effect for monitoring the EDNet contract.

Without assessing risk and developing a CMP to address the risks in the EDNet contract, the
Department lacks assurance that the contractor is adhering to the requirements of the contract,
and that the Department is receiving intended products and services.

Issue 3b – Deliverables under the contract were not routinely reviewed and
           recommendations were not made to the CO for acceptance or rejection.

Documentation of deliverable receipt and acceptance was not found in either the COR or CO
files. There was no supporting documentation to show if all deliverables were received,
received timely, and met contractual requirements.

We asked the COR to provide a copy of any deliverable tracking schedules she used to ensure
the contractor provided all required deliverables. The COR had not developed such a schedule,
but provided a schedule prepared by the contractor that summarized deliverable status. In July
2006, the IV&V contractor developed a compliance matrix of deliverables required under the
contract. This matrix included 1,948 items in 19 deliverable categories. OCIO staff provided us
with this matrix for 5 deliverable categories that included 817 items. We judgmentally selected
32 items (4 percent) from this list to determine whether the deliverables were received timely
and met contract requirements.

While the COR provided us with all of her electronic files and emails, we could not determine
which items represented final deliverables, or when the documents were received (see further
discussion of contract file documentation in Issue 3d of this section). We then asked the COR to
provide us with copies of the documents received for these 32 items, along with information to
show the date received and acceptance by the Department, if any. According to the COR, 24 of
the 32 deliverables requested (75 percent) were not delivered. Of the eight that were delivered,
four were related to the Management Dashboard and Firewall Assessment, which were rejected
by the Department for not meeting contract requirements. Included as not delivered were three
deliverables originally developed by the former EDNet contractor that the current contractor had
not updated or revised as required.

FAR Subpart 46.501 states,

       Acceptance constitutes acknowledgment that the supplies or services conform
       with applicable contract quality and quantity requirements….Supplies or services
       shall ordinarily not be accepted before completion of Government contract quality
       assurance actions….Acceptance shall ordinarily be evidenced by execution of an
       acceptance certificate on an inspection or receiving report form or commercial
       shipping document/packing list.

FAR Subpart 46.502 states,

       Acceptance of supplies or services is the responsibility of the contracting officer.
Final Audit Report
ED-OIG/A19G0009                                                                      Page 26 of 40

Section VI.E.5-6 of the Directive states, the COR:

       Reviews and makes timely recommendations to the CO as to the approval,
       disapproval, or other action to take concerning a contractor’s submission of (or
       failure to submit) payment requests, deliverables, interim or final progress and
       financial reports, or any other requirements of the contract. . ..

       Immediately reports contractor performance problems to the CO/CS.

Section VII.A.4 of the Directive states,

       The CO relies heavily on the COR to collect monitoring information and in make
       [sic] related analyses and recommendations for administrative action. This
       information and analysis must be fully documented and reported promptly to the
       CO to protect the Government's interests, and to ensure that the program office
       will have the facts necessary to make informed decisions about the contract and
       the program in general.

Section VII.N.1-3 of the Directive states that only a CO can formally accept or reject
deliverables, and that it is the CO’s responsibility to take formal action to reject the
deliverable. Formal action can include written notification to the contractor and rejection
of deliverable payment, if applicable.

OCFO Procedure CO-8, Procedure for Receiving Goods and Services in the Contracts and
Purchasing Support System (CPSS), dated March 15, 2003, includes the following definitions:

       Acceptance - acknowledgement by the government that goods and services
       received conform with the requirements of the contract. The contracting officer is
       responsible for acceptance of goods and services. The COR inspects and
       recommends acceptance.

       Constructive Acceptance - A concept in which acceptance is deemed to have
       occurred on the 7th day after the contractor delivered goods or performed the
       services, unless a disagreement over quantity, quality, or contractor compliance
       with a contract requirement exists.

The May 12, 2005, memorandum from the CO appointing the COR to the EDNet contract,
signed by both parties on May 20, 2005, includes the following as the COR’s responsibility:

       Monitor the contractor's performance to ensure compliance with the technical
       requirements of the contract including inspection and testing of deliverables and
       evaluation of reports. Recommend final acceptance or rejection to the CO.

The COR stated that she was not aware of any analyses performed to determine whether
deliverables met contract requirements. She stated she feels overwhelmed with contract
monitoring responsibilities and does not have enough time to both review invoices and
Final Audit Report
ED-OIG/A19G0009                                                                      Page 27 of 40

ensure the contractor is complying with contract terms. The CO stated he is copied on
deliverables provided to the COR, and the COR provides acceptance information to him
only on an exception basis. If the COR does not provide direction, the CO assumes the
deliverables meet requirements. The CO stated after seven days, constructive acceptance
of deliverables occurs.

Without formal review and acceptance, the Department cannot ensure the contractor is meeting
requirements and that inappropriate deliverables have been constructively accepted. If
deliverables do not meet requirements, the Department may not be receiving the products and
services paid for under the contract. Inadequate inspection and lack of formal acceptance or
rejection of deliverables may set a precedent of not enforcing contract terms, making it more
difficult for the Department to enforce other contract terms. Also, there is no assurance that all
the deliverables are delivered as required by the contact. As seen from our limited review of 32
deliverables, the contractor had not provided 24. The Department is not getting the products and
services for which it is paying under the contract.

Issue 3c – The COR did not prepare and submit written evaluations of contractor-
           submitted reports.

The COR did not prepare and submit written evaluations of contractor-submitted reports as
required. We identified 43 different reports to be submitted monthly, quarterly, or semi-annually
under the contract. The COR stated communication with the CO related to progress reports is
rarely made and the evaluation, if any, is informal. As a result, this tool for contract monitoring
is not being effectively used.

FAR Subpart 42.1101 states,

       Production surveillance is a function of contract administration used to determine
       contractor progress and to identify any factors that may delay performance.
       Production surveillance involves Government review and analysis of – (a)
       Contractor performance plans, schedules, controls, and industrial processes; and
       (b) The contractor’s actual performance under them.

FAR Subpart 42.1106(b) states that contract administration offices shall review and verify the
accuracy of contractor reports and advise the contracting officer of any required action.

Section VII.G.2.a.ii of the Directive states,

           Understand and Evaluate the Performance Reports – The COR must read
           promptly all progress reports submitted by the contractor. Failure to read the
           reports negates their considerable value in keeping the Government up to date.

           If a report’s language is vague or unclear, the COR should ask the contractor
           for clarification. The contractor may be trying to 'gloss over' a problem. If
           the technical content of the report lies outside the COR’s expertise, a technical
           specialist within the Department should be called in to interpret the report.
Final Audit Report
ED-OIG/A19G0009                                                                     Page 28 of 40

           The COR must make a written evaluation of each report. Depending on the
           type of contract and relative importance of the report, the evaluation might be
           either rigorous or reasonably informal.

The May 12, 2005, memorandum from the CO appointing the COR to the EDNet contract, and
signed by both parties on May 20, 2005, includes the following as the COR’s responsibility,

       Review progress and financial reports, invoices, vouchers, and recommend
       approval or disapproval by the CO.

The COR stated written evaluations of contractor-submitted reports are done through the CPSS
when she approves invoices. However, we reviewed the information in CPSS and found that
there were no comments for 12 of 31 (39 percent) invoices reviewed. Of the 19 invoices that
included comments, 15 did not identify the author of the comments. None of the comments
identified the reports reviewed and conclusions of the review. This information does not satisfy
the requirements of a written evaluation. The CO stated the COR contacts him via email as
incidents arise, but does not provide him with written evaluations of the contractor’s reports.
This also does not meet the requirements of the Directive to provide a written evaluation of each
report.

Detailed review of contractor-submitted reports, whether by the COR or other staff with results
provided to the COR, provide the Department with an effective monitoring tool and potentially
early detection of developing problem areas. Feedback to the CO is critical to ensure the CO is
kept informed of any developing issues.

Issue 3d – Contract files did not include complete records of actions taken under the
           contract.

Contract files did not adequately document all significant actions and monitoring. Specifically
we noted,

   •		 Neither the COR nor CO files contained documentation of deliverable receipt and 

       acceptance, 

   •		 Technical direction provided was not documented,
   •		 Significant discussions with the contractor regarding billing accuracy were not 

       documented, and 

   •		 Electronic data maintained by the COR was not easily identifiable and readily retrievable.

Documentation of Deliverable Receipt and Acceptance

As stated above under Issue 3b, the COR did not maintain documentation of deliverable receipt
and acceptance. As discussed below, the COR maintained all email correspondence and files
received, but we could not determine from this information which items represented final
deliverables and when the items were received.
Final Audit Report
ED-OIG/A19G0009                                                                     Page 29 of 40

Documentation of Technical Direction Provided

As discussed in Finding 2, Department staff provided verbal or technical direction to the
contractor with respect to tasks under the contract, primarily the asset management system and
the Management Dashboard. This direction was not fully documented in contract records, and
the CO was not formally informed of changes that were being made.

Significant Discussions with the Contractor Regarding Billings

The COR reported she experienced difficulties with the accuracy of contractor billings during the
early months of the contract. She stated she had numerous discussions with less senior
representatives of the contractor, but eventually spoke with a vice president to resolve the
problem. The COR’s files did not have documentation of that discussion.

Electronic Data Maintained by the COR

We also noted that the COR’s file organization could be improved. A great deal of the COR’s
information was maintained electronically. While this is an acceptable format per the FAR, it
was difficult to identify deliverables, reports, and other information. The COR provided us with
three CDs, which included 5,088 email messages and 662 other files that although organized to
some extent in subfolders by subject areas, did not indicate which items under subfolders
represented the final versions of the documents. For example the files under the “deliverable”
subfolder did not indicate which files were the final versions of deliverables provided or when
the deliverables were received. In addition, the information was stored on the COR’s email
archives and personal folder in the network drive, limiting access to information that may be
needed by others, should the COR be unavailable when information is required.

FAR Subpart 4.801 states,

       (a) The head of each office performing contracting, contract administration, or
       paying functions shall establish files containing the records of all contractual
       actions.

       (b) The documentation in the files…shall be sufficient to constitute a complete
       history of the transaction for the purpose of – (1) Providing a complete
       background as a basis for informed decisions at each step in the acquisition
       process; (2) Supporting actions taken; (3) Providing information for reviews and
       investigations; and (4) Furnishing essential facts in the event of litigation or
       congressional inquiries. . ..

FAR Subpart 4.802 states,

       (c) Files must be maintained at organizational levels that ensure – (1) Effective
       documentation of contract actions; (2) Ready accessibility to principal users; (3)
       Minimal establishment of duplicate and working files; (4) The safeguarding of
Final Audit Report
ED-OIG/A19G0009                                                                        Page 30 of 40

       classified documents; and (5) Conformance with agency regulations for file
       location and maintenance.

       (f) Agencies may retain contract files in any medium (paper, electronic,
       microfilm, etc.) or any combination of media, as long as the requirements of this
       subpart are satisfied.

Section VII.K of the Directive states,

       1. 	 The purpose of detailed record-keeping is to build a complete history of each
            project so that information is not lost or forgotten, and so that others – e.g.,
            one’s supervisor, a new COR assigned to the project, an auditor or perhaps a
            court of law – can get a clear picture of what has occurred during the life of
            the contract. (If a dispute occurs, it could be several years between the event
            and its resolution. The COR and the program office file could be called upon
            at a very late date.) Files and records should be maintained in an orderly
            fashion with an index noting documents contained in files.

       2. 	 The COR should document every significant action taken or conversation held
            in the course of monitoring or administering a contract. The judgment of what
            is significant is left to the COR although too much documentation is usually
            better than not enough. (Emphasis in original.)

       3. 	 Any monitoring action or conversation, which discloses that the contractor is
            either failing to perform as required or is failing to make sufficient progress,
            must be documented….

       4. 	 When the COR judges actions or conversations worthy of documentation,
            such documentation must be placed in the program office contract file, and a
            copy must be sent to the CO for entry into the official file. . ..

       6. 	 Any substantive instruction or recommendation made by the CO to the COR
            must also be made a part of the official file. Such documentation is necessary
            to prevent confusion concerning “apparent authority” (see Section VII.B.2)
            and guard against misunderstandings among the CO, COR and contractor.

Section VII.Q of the Directive states,

       1. 	 The Government’s record for a contract is maintained primarily in two places:
            In the program office, and in the contracting office.

       2. 	 The program office file, maintained by the COR, should contain all information
            needed by the COR to carry out his or her contract monitoring and managing
            responsibilities….
Final Audit Report
ED-OIG/A19G0009                                                                       Page 31 of 40

        3. 	 The file maintained by the CO is the Government’s “official file” and must
             contain all information having even the slightest bearing on the obligations of
             the two parties to the contract and their performance against those obligations.

The Department did not ensure that a CMP was developed, or that the CMP developed by the
IV&V contractor included the responsibilities of all parties. The Department had not established
a process to formally document deliverable receipt, review, and acceptance. The COR stated
that she felt overwhelmed by her contract monitoring responsibilities and did not have time to
ensure the contractor met all contract requirements.

Without an organized approach to contract monitoring, through development of a CMP that
covers all responsibilities, the Department cannot ensure that all deliverables were received, on
time, and met contract requirements. The Department’s interests in the event of a dispute may be
harmed without complete documentation of products provided by the contractor and the
Department’s determination of the acceptability of those products.

Without sufficient documentation of OCIO’s decisions and actions on the contract, the
Department’s interests may not be sufficiently protected. Lack of documentation in the event of
a dispute or future action may harm the Department’s position. Also, without sufficiently
organized contract documentation, whether in hard copy or electronic, available to all parties that
need it, the Department may be unable to or experience difficulty in identifying, retrieving, and
reviewing data should the need arise.

Recommendations

We recommend that the Chief of Staff ensure that the Chief Information Officer and the Chief
Financial Officer take action to:

3.1		   Immediately develop and implement a contract monitoring plan for the EDNet contract to
        include the roles and responsibilities of all involved OCIO staff, OCFO/CAM staff, and
        the IV&V contractor. Conduct a meeting with all involved parties to ensure that all are
        familiar with their responsibilities, as required by the OCFO procedure.

3.2		   Ensure that appropriate resources, whether Department staff, IV&V, and/or other contract
        assistance, are assigned so that contract-monitoring responsibilities can be effectively
        accomplished.

3.3		   Establish a process to track receipt of deliverables, review the deliverables for
        compliance with contract requirements, and provide written recommendation to the CO
        for acceptance or rejection of deliverables. Ensure that constructive acceptance does not
        occur and harm the Department’s interests under the contract.

3.4		   Ensure that written evaluations of contractor submitted reports are performed and
        provided to the CO.
Final Audit Report
ED-OIG/A19G0009                                                                        Page 32 of 40

3.5		   Periodically determine the reliability of performance reports provided by the contractor
        by verifying the information contained in the reports.

3.6		   Establish and implement a process to ensure that all significant actions and monitoring
        under the contract are adequately documented, organized, and accessible. Ensure that
        CAM and program office files contain complete information, whether in electronic
        format or hard copy, to constitute a complete history of the contract that is accessible to
        all involved parties.

Department Comments

The Department concurred with the finding and recommendations.
Final Audit Report
ED-OIG/A19G0009                                                                     Page 33 of 40



                  OBJECTIVE, SCOPE, AND METHODOLOGY 



The objective of the audit was to determine the effectiveness of the Department’s management of
the EDNet contract. To accomplish our objective, we performed a review of internal control
applicable to the Department’s management of the EDNet contract. We reviewed applicable
laws and regulations and Department policies and procedures. We conducted interviews with
Department officials to gain an understanding of the contract management process and specific
management of the EDNet contract. We also conducted interviews with the EDNet contractor
and the IV&V contractor to obtain information about various aspects of contract performance.

We reviewed the EDNet contract, statement of work, and business and technical proposals
submitted by the contractor. We also reviewed the IV&V contract. We evaluated information in
the COR’s files, including electronic data and email, and in the official contract file maintained
by CAM. We performed in-depth reviews of two significant deliverables – the Management
Information Dashboard and the EDNet Asset Management System – and evaluated reports
provided to the Department by the contractor and IV&V.

The scope of our review included analysis of information from the competition of the EDNet
contract, from January 6, 2005 through April 26, 2005, and analysis of performance and
deliverables applicable to the EDNet contract during the period May 1, 2005, through October 6,
2006. The original listing of contract deliverables from the IV&V Compliance Matrix (CMX)
included a total of 1,948 deliverables from 19 deliverable categories. OCIO provided OIG with
the CMX for 817 deliverables in five major categories. We judgmentally selected a sample of 32
deliverables from this list, based on criticality level in the EDNet contract, to review the
Department’s process for receiving and accepting/rejecting deliverables. Judgmental sampling
was used since results would not be projected as separate deliverable requirements varied
significantly and were not comparable.

The scope of our review also included contract payments made during the period May 1, 2005
through July 31, 2006. We extracted the listing of payments from the Financial Management
Support System (FMSS), a component of the Education Centralized Automated Processing
System (EDCAPS). We included all 31 invoices in our review for the scope period, totaling
$20,609,890 in payments made by the Department.

To complete our review, we relied on computer-processed data obtained from EDCAPS/FMSS
representing contract payments from May 1, 2005 through July 31, 2006. This data was also
recorded in the Department’s CPSS and compared by OIG staff to the payments in
EDCAPS/FMSS. We also verified the completeness and accuracy of the data by reviewing
EDNet contractor invoices in the CO and COR files to validate the payment amounts recorded in
EDCAPS/FMSS and CPSS. Based on our testing, we determined the listing of contract
payments was complete for the purposes of our audit.
Final Audit Report
ED-OIG/A19G0009                                                                 Page 34 of 40

The fieldwork for our audit was conducted at Department offices in Washington, DC, during the
period July 2006 through November 2006. We held an exit conference with OCFO and OCIO
staff on November 15, 2006. Our audit was performed in accordance with generally accepted
government auditing standards appropriate to the scope of the review described above.
Final Audit Report
ED-OIG/A19G0009                                                                                                 Page 35 of 40

                           Attachment 1: Original Service Level Agreements

                                                                                                                    Included
                                                                                                 Maximum
                                                          Disincentive        Reporting                                as
 SLA                      Description                                                           Award Point
                                                             Level            Frequency                             Modified
                                                                                                 Deduction
                                                                                                                     SLA #
  1        Customer Satisfaction (Touch Survey)               None 3            Daily                N/A              N/A
  2        Customer Satisfaction (Manager Survey)            5 points          Weekly                N/A              N/A
  3        Customer Satisfaction (Independent               20 points       Semi-Annually            N/A              N/A
           Survey)
  4        Acceptable Time to Notify ED of a                  None               Daily               N/A                   10
           Security Event
  5        Acceptable Time to Respond to CERT                 None               Daily               N/A                   11
           [Computer Emergency Readiness Team] /
           FedCIRC [Federal Computer Incident
           Reporting Center]Alert
  6        Acceptable Time to Complete CERT /                  High              Daily              108.0                  11
           FedCIRC Tasks
  7        Acceptable Time from Anti-Virus Update              High             Weekly               33.6                  7
           Release to Full Distribution
  8        Acceptable Time to Release Virus                    Low              Weekly                9.6                  8
           Definitions Update
  9        Number of Virus Penetrations to the                 High             Weekly               28.8                  12
           Network That Cause a Network Outage
  10       Acceptable Time to Communicate a                   None             Monthly               N/A              None
           Major Emergency Event
  11       Asset Management – Hardware and/or                 None              Weekly               N/A              None
           Software Inventory Accuracy
  12       Production Server Availability -                   None             Monthly               N/A                   1
           Criticality 1
  13       Production Server Availability -                    Low              Weekly             1,660.8 4               1
           Criticality 2
  14       Production Server Availability -                  Medium             Weekly             1,166.4                 1
           Criticality 3
  15       Production Server Availability -                    High             Weekly             5,299.2                 1
           Criticality 4
  16       Messaging Server Availability                      High             Monthly                54               3-5
  17       System Restoration in Non-Disaster                Various            Daily               25,308             13
           Recovery Situations.
  18       Department Authorized Disaster                      High            Monthly               10.8             None
           Recovery
  19       Timeliness of Backups                              Low              Monthly               3.6                   9
  20       Timeliness of Desktop System Installation         Medium            Weekly                14.4                  14

       3
         Although identified as SLAs, the surveys identified as numbers one through three were not considered SLAs for
       scoring purposes. They were considered to be part of the second set of 50 points in the Annual Performance Review
       Plan.
       4
         Items numbered 13 through 17 had considerably higher possible award deductions because they measured
       performance on an individual server basis within each category.
Final Audit Report
ED-OIG/A19G0009                                                                             Page 36 of 40

                                                                                              Included
                                                                               Maximum
                                                   Disincentive   Reporting                      as
 SLA                 Description                                              Award Point
                                                      Level       Frequency                   Modified
                                                                               Deduction
                                                                                               SLA #
  21   Timeliness of Move, Add or Change             Medium        Monthly        3.6            15
       Software or Hardware a Desktop System
       Upon Appropriate Department Request
  22   Timeliness of Establishment of Individual      None         Weekly        N/A             16
       User Accounts
  23   Timeliness of EDNet Password Reset             None         Weekly        N/A             16
  24   File Restoration (Non-Disaster Recovery).      None         Weekly        N/A             16
  25   Timeliness of Disabling User Accounts          None         Weekly        N/A             16
       (Including E-mail).
  26   Timeliness of Priority 1 Customer              High         Weekly        28.8            17
       Support
  27   Timeliness of Priority 2 Customer             Medium        Weekly        14.4            18
       Support
  28   Timeliness of Priority 3 Customer              Low          Weekly         9.6            19
       Support
  29   Timeliness of Helpdesk Call Answer             None          Daily        N/A             20
  30   Helpdesk Call Abandonment Rate                 None          Daily        N/A             21
  31   Helpdesk First Call Resolution                 High          Daily        108             22
  32   Follow-On Calls due to Problem                 High          Daily        108             23
       Repeated after Initial Fix Failed
  33   Call Center Availability                       None          Daily        N/A            None
  34   Category B Service Variance to Budget          High         Weekly        28.8           None
  35   Category B Variance to Schedule                High         Weekly        28.8           None
  36   Category B Deliverable Quality                 None         Monthly       N/A            None
  37   Move, Add, Change or Delete Telecom –          None          Daily        N/A             24
       Software
  38   Move, Add, Change or Delete Telecom –          None          Daily        N/A            None
       Hardware and Wire
  39   Network Availability                           High         Daily         108             2
  40   Response Time – Network                        High         Daily         108            None
  41   Variance to Schedule (Quality Assurance)       None         Weekly        N/A            None
  42   Mean Time to Repair – Applications             None         Weekly        N/A            None
  43   Availability – Custom Reports                  None         Daily         N/A            None
       Total                                                                    34,243
     Final Audit Report
     ED-OIG/A19G0009                                                                      Page 37 of 40

                      Attachment 2: Modified Service Level Agreements
                                                        Disincentive   Reporting   Maximum Award
SLA                     Description                        Level       Frequency   Point Deduction
 1     Server Availability                                 High         Weekly            5
 2     Network Availability                                High         Weekly            5
3      Outlook Availability                               Medium        Weekly            3
4      Blackberry Availability                            Medium        Weekly            3
5      Unity Availability                                 Medium        Weekly            2
6      Qualified Personnel Availability                   Medium        Daily             5
7      Anti-Virus Update (Software Version)                High         Weekly            2
 8     Virus File Release (Signature Files)                Low          Weekly            3
 9     Timeliness of Backups                               Low          Weekly            1
10     Timeliness of Notification of Issue & Security
       Events                                              High          Daily            3
11     Response to CERT/FedCIRC Alerts & Tasks
                                                           High         Weekly            1
12     Number of Virus Penetrations to the Network
       That Cause a Network Outage                         High         Weekly            1
13     Service Restoration (Non-Disaster Recovery)        Medium        Daily             1
14     Timeliness of Desktop System Installation          Medium        Weekly            1
15     Timeliness of Move, Add or Change Software
       or Hardware a Desktop System Upon
       Appropriate Department Request                      Low          Weekly            1
16     Maintain User Accounts (Email, Password
       Resets, Disable User Accts, File Restorations)      Low          Weekly            1
17     Priority 1 Customer Support                         High         Weekly            1
18     Priority 2 Customer Support                         Low          Weekly            1
19     Priority 3 Customer Support                         Low          Weekly            1
20     Helpdesk Call Answer                                Low          Daily             1
21     Helpdesk Call Abandonment Rate                      Low          Daily             1
22     Helpdesk First Call Resolution                     Medium        Daily             1
23     Follow-On Calls due to Problem Repeated
       after Initial Fix Failed                            High          Daily            3
24     Move, Add, Change or Delete Telecom -
       Software                                            Low          Weekly            1
25     Timely Production of Required Reports              Medium        Weekly            1
26     Complete and Accurate Process
       Documentation                                       Low           Daily            1
       Total                                                                             50
Final Audit Report
ED-OIG/A19G0009                                                                       Page 38 of 40


    Attachment 3: Capability Maturity Model Integration (CMMI) Levels


    CMMI                                        Definition
     Levels
    Level 0   Unaware. No awareness of a need to improve IT service delivery.
    Level 1   Initial Phase. IT service delivery is characterized as ad hoc, and occasionally
              even chaotic. Few processes are defined, and success depends on individual
              effort and heroics.
    Level 2   Repeatable. Basic service management processes are established. The
              necessary discipline is in place to repeat earlier successes on similar services
              with similar service levels.
    Level 3   Defined. The IT service processes are documented, standardized, and
              integrated into standard service processes. All services are delivered using
              approved, tailored versions of the organization’s standard service processes.
    Level 4   Quantifiable Managed. Detailed measurements of the IT service delivery
              process and service quality are collected. Both the service processes and the
              delivered services are quantitatively understood and controlled.
    Level 5   Optimization. Continuous process improvement is enabled by quantitative
              feedback from the processes and from piloting innovative ideas and
              technologies.
Final Audit Report
ED-OIG/A19G0009                                                                    Page 39 of 40

                           Attachment 4: Category C Staff 

                          Labor Categories and Qualifications 

                                                 Total                 Partially       Not
Labor Categories                                Reviewed   Qualified   Qualified     Qualified
Application Engineer                                1                     1
Application Engineer – Senior                       1                     1
Business Analyst – Senior                           2         1                          1
Communication Analyst – Intermediate                3                     2              1
Communication Analyst – Senior                     10         2           7              1
Communication Installer – Senior                    1         1
Computer System Installation Specialist             1                                    1
Data Communication Manager                          3         2                          1
Database Management Specialist                      1                                    1
Database Management Specialist – Senior             1                     1
Engineering Aide                                    3         2                          1
Enterprise Resource Planning Analyst/Designer       3         3
Functional Analyst                                  3         2           1
Functional Analyst – Senior                         6         1           2              3
Hardware Installation Technician – Senior           1                                    1
INFOSEC [Information Security] Systems             1          1
Specialist – Senior
INFOSEC Systems Technical Specialist               2          2
Information Engineer – Senior                      2          2
Learning Architect                                 1                      1
Network Engineer                                   1                      1
Network Engineer – Senior                          2          2
Principal Business Process Reengineering           1                      1
Specialist
Principal Information Engineer                      7         7
Principal System Architect                          7         3           4
Project Analyst 1                                   3                     2              1
Project Managers                                    6         1           1              4
Quality Assurance Manager                           1         1
User Services Specialist V                          1                                    1
Voice Communication Manager                         2          1          1
Web Designer                                        2          2
Totals                                             79         36          26            17
Percentage of Total                                          46%         33%           22%
Final Audit Report
ED-OIG/A19G0009                                                Page 40 of 40

                        Attachment 5: List of Acronyms

Acronym    Definition
ALO        Audit Liaison Officer
AMS        Asset Management System
CAM        Contracts and Acquisitions Management
CAP        Corrective Action Plan
CERT       Computer Emergency Readiness Team
CFO        Chief Financial Officer
CIO        Chief Information Officer
CMMI       Capability Maturity Model Integration
CMP        Contract Monitoring Plan
CMX        Compliance Matrix
CO         Contracting Officer
COR        Contracting Officer’s Representative
CPSS       Contract and Purchasing Support System
CS         Contract Specialist
ED         Department of Education
EDCAPS     Education Centralized Automated Processing System
EDNet      Education Network
FAR        Federal Acquisition Regulation
FedCIRC    Federal Computer Incident Reporting Center
FMSS       Financial Management Support System
FSA        Office of Federal Student Aid
IT         Information Technology
IV&V       Independent Verification and Validation
OCFO       Office of the Chief Financial Officer
OCIO       Office of the Chief Information Officer
OFPP       Office of Federal Procurement Policy
OIG        Office of Inspector General
OM         Office of Management
PM         Project Manager
PMIT       Property Management and Inventory Team
PWS        Performance Work Statement
SLAs       Service Level Agreements
SP         Service Provider
                    Attachment 6: Department Response to Draft Report



               UNITED STATES DEPARTME NT OF ED UCATION

                                  m'flCE OF TilE SEC RETARY



                                            March 26, 2007

TO:            Michele Weaver-Dugan. Di rector
               Operations Internal Audit Team
               Office of Inspector General

FROM:          David L. DU,'
               Chief of 51111
SUBJECT:       Response 10 Omit AucH\ Report
               Th e Departmeut's Ma/lagemelll o/the EDNcl COI/lI"(ICI
               Conlrol Number ED-OIG/ A I 9GOO09



Thank you for your draft audit report. 771t' Depllrrmellt's .MallagemclII o/the £DNcl
('olllraCf. ED-OIG/A 19GOO09, dated January 18,2007. I have reviewed the draft audit
report and \<Ike no exception to the objectives, scope, methodology or findings of the
report. I concur with the repon's nineteen recommendations. Allached is a proposed
Correcti ve Action Plan submitted on behalf of the Office orthc Chief Infonnation Orncer
and the Office of tile ChicfFinunc ial Orncer for implementing the OIG
recommendations.

Please nol l.' thnt th~ correcrive actiolls cOIIH,in sensitive procuremellt infonml1ion
that must he protected from uIHlUfhorizcd 1.1Ct't'SS.

If you have ,IllYquestions regarding this response, please contact Brian Burns, Deputy
Chief Infom1ulion Of'licer. a\ (202) 245·6641.



Attachment    Proposed Corrective Action Plan


cc: 	   Chief Financial Officer
        Chief Infol1nat1011 Officer
        Director. COnlracts and Acquisitions Management




                      400 MAII'l'lJ\NU A\l f; l:I VI. WAS1IIN(JTON.   I),   2Q2rl201oo
